              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Control and Accountability of
Emergency Communication Network
Equipment




DOE/IG-0663                               September 2004
   .   Properly documented loans of ECN equipment.

During our inspection, we learned of plans to increasethe number of sites connected to the
ECN and to upgrade the system with new computers. Although the focus of our inspection
was on internal controls for existing ECN computer equipment, we identified accountability,
inventory control, and loan processing as areaswhere safeguardsshould be strengthenedas
new computers are added to the system.

MANAGEMENT        REACTION


We made several recommendations to Department managementto ensure that ECN
computer equipment is appropriately inventoried and controlled. Management generally
agreed with our report and recommendations, and has initiated corrective actions.

We found management's    comments   to be responsive   to our recommendations.


Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Under Secretary for Energy, Science and Environment
    Associate Administrator for Management and Administration
    Associate Administrator for Emergency Operations
    Director, Office of Management, Budget, and Evaluation/Chief Financial Officer
    Director, Office of Security and Safety Performance Assurance
    Director, Policy and Internal Controls Management
    Office of Program Liaison and Financial Analysis




                                           2
CONTROL AND ACCOUNTABILITY OF EMERGENCY
COMMUNICATION NETWORK EQUIPMENT




TABLE OF
CONTENTS



              OVERVIEW

              Introduction and Objective                                          1

              Observations and Conclusions                                        2


              DETAILS OF FINDINGS

              Property Accountability                                             3

              Equipment Inventories                                               4

              Property Loan Documents                                             6


              RECOMMENDATIONS                                                     6


              MANAGEMENT COMMENTS                                                 7


              INSPECTOR COMMENTS                                                  7


              APPENDICES

              A. Scope and Methodology                                            8

              B. Recent Reports                                                   9

              C. Management Comments...........................................   10
Overview

INTRODUCTION    The Department of Energy’s (DOE) Emergency Communication
AND OBJECTIVE   Network (ECN) is an important national asset established to
                provide a world-class, state-of-the-art, high-speed, global
                emergency communications network. The ECN supports the
                exchange of classified and unclassified voice, data, and video
                information for managing situations involving DOE assets and
                interests, and for national emergencies.

                Prior to June 27, 2004, DOE’s Office of Operations Support,
                Office of Security and Safety Performance Assurance, was
                responsible for managing the ECN. On that date, the Office was
                transferred to the National Nuclear Security Administration
                (NNSA) and renamed the Office of Emergency Operations
                Support. The Office of Emergency Operations Support uses
                various computer and other related equipment to perform the ECN
                mission. Bechtel Nevada (Bechtel) has contractual responsibility
                for managing ECN property.

                The ECN currently connects DOE Headquarters to 28 sites, to
                include eight DOE field offices, four national laboratories, selected
                DOE support facilities and other federal agencies. These agencies
                include the Federal Bureau of Investigation’s (FBI) Critical
                Incident Response Group and the National Infrastructure
                Protection Center; the Nuclear Regulatory Commission; and the
                Department of Homeland Security. The Russian Federation’s
                Ministry of Atomic Energy in Moscow is also connected to the
                ECN.

                The objective of this inspection was to determine if accountability
                and internal controls for ECN computer equipment were adequate.

                Recent Office of Inspector General (OIG) reports address the need
                to improve accountability and internal controls over DOE
                computers. These reports are listed in Appendix B.




Page 1                                Control and Accountability of Emergency
                                      Communication Network Equipment
OBSERVATIONS AND   Since the Office of Operations Support and Headquarters property
CONCLUSIONS        management personnel had not established effective oversight of
                   the property inventory system to account for ECN computer
                   equipment, Bechtel was tasked in June 2002 to establish a separate
                   property control database for ECN computer equipment. Although
                   positive steps have been taken since June 2002 to account for ECN
                   computer equipment, we identified internal control weaknesses
                   that could undermine DOE’s ability to ensure that ECN computer
                   equipment is properly accounted for and inventoried. Specifically,
                   we found that DOE Headquarters property management personnel
                   and Bechtel had not, as required:

                   •   recorded all ECN computer equipment received by DOE
                       Headquarters in property management databases;

                   •   performed property inventories; and

                   •   properly documented loans of ECN equipment.

                   During our fieldwork we learned that the Office of Operations
                   Support had initiated a program to increase the number of sites
                   connected to the ECN and to upgrade the system with new
                   computers. While our inspection focused on internal controls and
                   accountability with respect to existing ECN computer equipment,
                   we identified accountability, inventory control, and loan
                   processing as areas where safeguards should also be strengthened
                   as new computers are added to the system.




Page 2                                             Observations and Conclusions
Details of Findings

PROPERTY              We found that neither Headquarters property management
ACCOUNTABILITY        personnel nor Bechtel had recorded all ECN computer equipment
                      purchased by DOE Headquarters in property management
                      databases. There are two property management databases that
                      track ECN computer equipment, specifically desktop and laptop
                      computers, servers, and workstations, which are procured for the
                      Office of Operations Support. The ECN computer equipment is
                      first received at DOE Headquarters by the Assets Management and
                      Support Services Group, Office of Administration, for property
                      control purposes before it is provided to users. The Assets
                      Management and Support Services Group uses the Sunflower
                      Assets System for its receipt, tagging, tracking, inventory, and
                      disposal activities for equipment procured by DOE Headquarters.
                      Bechtel, under contract with the Office of Operations Support to
                      manage ECN computer equipment, maintains its own separate
                      property database for ECN equipment.

                      The Department’s property regulations, Title 41, Code of Federal
                      Regulations, Part 109, requires “sensitive items,” such as
                      computer equipment, to be recorded and tracked in the appropriate
                      property management database. In accordance with the DOE
                      property regulations, records must be maintained for accountable
                      Government personal property, such as computer equipment, that
                      is in the hands of contractors or used by DOE personnel. This
                      includes recording the asset type, description of items, unit
                      acquisition cost, location, and assigning a property control number.

                      We determined that not all computer equipment purchased for the
                      ECN was recorded in the Sunflower Assets System, identified as
                      sensitive items, and assigned property numbers for accountability
                      and control as required. During discussions with Office of
                      Operations Support officials, we learned that some ECN computer
                      equipment deliveries were made directly to the users, and not to
                      the Assets Management and Support Services Group.
                      Consequently, these items were not properly processed and entered
                      into the Sunflower Assets System. We also determined that the
                      Bechtel property database did not include all the ECN property.
                      As a result, some ECN computer equipment was not properly
                      accounted for or controlled.




Page 3                                                              Details of Findings
                Our review of DOE Headquarters and Bechtel property records for
                ECN computer equipment identified the following:

                •   224 ECN computers were listed in the Sunflower Assets
                    System and assigned to the Office of Operations Support.
                    However, at the time of our review, Bechtel’s database listed
                    only 95 ECN computers.

                •   21 of 37 computers (57 percent) randomly selected from the 95
                    ECN computers listed in Bechtel’s database were not listed in
                    the Sunflower Assets System.

                •   The Sunflower Assets System was not always updated when
                    employees were relocated or equipment reassigned. For
                    example, we identified one individual at DOE Headquarters
                    who had left DOE in December 2001, yet still had 13
                    computers assigned in his name; a second individual who
                    retired in 2001, yet still had 14 computers assigned in his
                    name; and a third individual who was no longer with DOE, yet
                    still had 14 computers assigned in his name.

EQUIPMENT       We found that neither Headquarters property management
INVENTORIES     personnel nor Bechtel had performed required property inventories
                of ECN computer equipment. According to Federal property
                regulations, physical inventories of all sensitive items, such as
                computer equipment, are required to be performed annually and
                the results reconciled with property records and applicable
                financial control accounts. We were told by a senior Headquarters
                Property Management official that annual inventories of ECN
                equipment had not been conducted since 2001 because of various
                administrative issues, such as problems in implementing the
                Sunflower Assets System, organizational realignments, and
                staffing reductions.

DOE Inventory   Prior to our review, the latest inventory conducted by the DOE
                Headquarters Property Management Team of sensitive personal
                property listed in the Sunflower Assets System, including ECN
                equipment assigned to the Office of Operations Support, was May
                2001. At that time, a reconciliation of inventory discrepancies was
                performed. We noted that the Department was not able to locate
                390 line items valued at over $2.24 million. The 390 missing
                items included 104 items of missing ECN computer equipment.
                We were advised that no actions were taken by the DOE
                Headquarters Property Management Team to locate the missing
                items, even though ECN activities involve sensitive and classified
                information.


Page 4                                                        Details of Findings
                      We determined that 14 of the missing 104 items of ECN computer
                      equipment had been approved for processing classified
                      information. At our request, the Office of Operations Support
                      showed us the 14 items. We did not identify any issues regarding
                      possible compromise of classified or sensitive material.
                      Nevertheless, we are concerned that existing internal controls did
                      not provide assurance that the 104 items of ECN computer
                      equipment were properly controlled and accounted for between the
                      time of the Headquarters inventory in 2001 and our inspection.

                      According to the Headquarters Property Management Team
                      Leader, an inventory of ECN property was scheduled to begin
                      during the first part of Calendar Year 2004, and take eight months
                      to complete. Therefore, we did not attempt to locate the remaining
                      88 items of missing computer equipment. However, as of August
                      2004, the inventory had not been initiated.

Bechtel’s Inventory   A Bechtel official advised that a Bechtel database that was separate
                      from the Sunflower Assets System was needed to improve control
                      over the inventory of ECN equipment. A Bechtel database was
                      developed in June 2002, and in July 2003 Bechtel asked each site
                      with ECN equipment to assist with conducting an inventory to
                      verify the accuracy of its database. However, some sites did not
                      initially respond to the inventory request, while others provided
                      responses that were not annotated to reflect the results of their
                      inventory.

                      Our review of Bechtel’s inventory of the ECN sites disclosed the
                      following:

                      •   inventory listings returned by the ECN sites were not signed by
                          account or property custodians accepting responsibility for the
                          property;

                      •   an official at one site verified that 15 of 25 items were on hand,
                          but provided no explanation regarding the remaining 10 items,
                          which included one item approved to process classified
                          information; and

                      •   an official at another site verified that 10 of 21 items were on
                          hand, but the remaining 11 items were listed as “in question” or
                          “do not have.”




Page 5                                                               Details of Findings
                  We were advised that Bechtel was directed by the Office of
                  Operations Support to perform an additional physical inventory of
                  all ECN property. We were told that this additional inventory is to
                  be completed by the end of Fiscal Year 2004.

PROPERTY LOAN     We found that neither DOE Headquarters property management
DOCUMENTS         personnel nor Bechtel properly documented loans of ECN
                  equipment to other locations.

                  DOE and Federal requirements allow Government-owned personal
                  property to be loaned for official purposes. However, the loan
                  request must be made on the proper form or written equivalent, and
                  must state specifically the purpose of the loan and period of time
                  required. When approved, a memorandum transmitting the loan
                  agreement must be prepared identifying the loan period, delivery
                  time and point of delivery, and other information, to ensure proper
                  control and protection of DOE property.

                  ECN property was loaned to DOE as well as non-DOE agencies,
                  such as the FBI and the Federal Emergency Management Agency.
                  However, when we asked for copies of the required loan
                  documentation, DOE and Bechtel officials were not able to provide
                  the documents.

RECOMMENDATIONS   We recommend the Associate Administrator for Emergency
                  Operations, NNSA:
                  1. Ensure that ECN property is properly controlled and required
                     inventories are conducted;

                  2. Require Bechtel to reconcile its property management database
                     with the Headquarters database to ensure accountability of all
                     computer equipment;

                  3. Ensure that required documentation is prepared to support the
                     loan of ECN equipment; and

                  4. Provide a certified inventory of ECN property to the Office of
                     Administration.

                  We also recommend the Director, Office of Administration:
                  5. Modify DOE property management systems and processes as
                     necessary to ensure effective control of Headquarters property.




Page 6                                                   Recommendations
MANAGEMENT   Management concurred with the recommendations. We have
COMMENTS     included management’s comments in Appendix C.

INSPECTOR    We found management’s comments to be responsive to our
COMMENTS     recommendations.




Page 7                            Management and Inspector Comments
Appendix A

SCOPE AND     We reviewed the management of and internal controls over
METHODOLOGY   Emergency Communication Network equipment. We identified
              and reviewed applicable Federal and DOE policy and regulations
              and other key documents applicable to the inspection. We
              interviewed Federal and contractor staff assigned to DOE
              Headquarters, the Nevada Support Facility, and the Savannah
              River Site. This inspection was conducted in accordance with the
              “Quality Standards for Inspections” issued by the President’s
              Council on Integrity and Efficiency.

              As part of our review, we also evaluated the Department’s
              implementation of the Government Performance and Results Act
              of 1993. The Department’s Annual Performance Plan for Fiscal
              Year 2003 did not contain specific performance data addressing
              property management for the ECN project. However, there were
              objectives and goals related to Corporate Management. One
              Corporate Management performance goal was to develop
              strategies and policies governing the protection of national security
              and other critical assets entrusted to the DOE. Also, included was
              a goal to manage security operations for DOE facilities in the
              national capital area. During our inspection, we identified
              accountability, inventory, and loan processing, as areas where
              controls could be strengthened related to the accountability and
              controls of computer equipment used for the ECN project.




Page 8                                                Scope and Methodology
Appendix B

RECENT REPORTS   The OIG has recently issued the following reports addressing
                 accountability and internal controls over personal computers:

                 •   Interim Inspection Report on “Inspection of Internal Controls
                     Over Personal Computers at Los Alamos National
                     Laboratory,” DOE/IG-0597, April 2003, reported weaknesses
                     that undermined confidence in the control and safeguard of
                     computers.

                 •   “Audit of Management of Sensitive Equipment at Selected
                     Locations,” DOE/IG-0606, June 2003, reported that
                     improvements were needed in the accountability of computers
                     and other sensitive equipment at selected DOE locations.

                 •   “Inspection of Internal Controls Over Laptop and Desktop
                     Computers at the Savannah River Site,” INS-L-03-09, July
                     2003, found that improvements were needed in computer
                     accountability documentation.

                 •   “Inspection of Internal Controls Over Classified Computers
                     and Classified Removable Media at the Lawrence Livermore
                     National Laboratory,” DOE/IG-0628, December 2003,
                     reported that computer equipment and removable media were
                     not subjected to required inventories.

                 •   “Inspection of Internal Controls Over Personal Computers at
                     the Los Alamos National Laboratory,” DOE/IG-0656, August
                     2004, reported that strict property controls needed to be
                     consistently applied to classified and unclassified computers

                 •   “Inspection of Internal Controls Over the Accountability of
                     Computers at Sandia National Laboratory, New Mexico,”
                     DOE/IG-0660, August 2004, reported that internal controls
                     over classified and unclassified desktop, laptop, and related
                     computer equipment could be improved.




Page 9                                                   Management Comments
Appendix C




Page 10      Management Comments
Page 11   Management Comments
                                                                    IG Report No. DOE/IG-0663

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
